No. 19-108 and 19-184
IN THE SUPREME COURT OF THE UNITED STATES
UNITED STATES OF AMERICA, PETITIONER
V.

MICHAEL J.D. BRIGGS
UNITED STATES OF AMERICA, PETITIONER
V.

RICHARD D. COLLINS
UNITED STATES OF AMERICA, PETITIONER
V.

HUMPHREY DANIELS, III
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the REPLY BRIEF FOR THE UNITED STATES, via first-class mail, postage prepaid, this
l3 day of March 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain5631 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
March 13, 2020.
Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
February 13, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin's phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0 108
USA
MICHAEL J.D. BRIGGS

PETER COOTE
PENNONI
1900 MARKET STREET
SUITE 300
PHILADELPHIA, PA 19103
215-222-3000
PCOOTE@PENNONI.COM
ZACHARY A. GRAY
DEPARTMET OF THE ARMY
9275 GUNSTON ROAD
FORT BELVOIR, VA 22060-5 546
703-806-0676
ZACHARY.A.GRAY8 .MIL@MAIL.MIL
JEFFREY T. GREEN
SIDLEY AUSTIN LLP
1501 K STREET, N.W.
WASHINGTON, DC 20005
202-736-8291
JGREEN@SIDLEY.COM
ALLYSON N. HO
GIBSON, DUNN & CRUTCHER LLP
2001 ROSS AVENUE
DALLAS, TX 75201-2911
214-698-3233
AHO@GIBSONDUNN.COM

MAJ. JOHNATHAN LEGG
FAIRCHILD HALL
ROOM 6H-194
US AIR FORCE ACADEMY, CO 80840
JOHNATHAN.LEGG@USAFA.EDU
JEREMY B. LOWREY
ATTORNEY AT LAW
P0 BOX 153
SHERIDAN, AR 72150
870-328-4957
JLOWREY@CENTERLANE.ORG
ELIZAB ETH G. MAROTTA
DEFENSE APPELLATE DIVISION
9275 GUNSTON ROAD
FORT BELVOIR, VA 22060-5 546
703-693-0647
ELIZABETH. G.MAROTTA.MIL@MAIL.MIL
STEVEN I. VLADECK
727 EAST DEAN KEETON STREET
AUSTiN, TX 78705
SVLADECK@LAW.UTEXAS.EDU
TERRI ZIMMERMAN
7705. POST OAK LANE
SUITE 620
HOUSTON, TX 77056
TERRI.ZIMMERMAN@ZLZSLAW.COM

19-0 184
USA
RICHARD D. COLLINS AND HUMPHREY DANIELS,
III

WILLIAM E. CASSARA
P.O. BOX 2688
EVANS, GA 30809
706-860-5769
BILL@WILLIAMCASSARA.COM
PETER COOTE
PENNONI
1900 MARKET STREET
SUITE 300
PHILADELPHIA, PA 19103
215-222-3000
PCOOTE@PENNONI.COM
ZACHARY A. GRAY
DEPARTMET OF THE ARMY
9275 GUNSTON ROAD
FORT BELVOIR, VA 22060-5 546
703-806-0676
ZACHARY.A.GRAY8 .MIL@MAIL.MIL
JEFFREY T. GREEN
SIDLEY AUSTIN LLP
1501 K STREET, N.W.
WASHINGTON, DC 20005
202-736-8291
JGREEN@SIDLEY.COM

TAMI L. MITCHELL
CIVILIAN APPELLATE DEFENSE COUNSEL
LAW OFFICE OF DAVID P. SHELDON, PLLC
5390 GOODWIEW DRIVE
COLORADO SPRiNGS, CA 80911
719-426-8967
TAMIMITCHELL@MILITARYDEFENSE.COM
MARK J. SCHWARTZ
MAJOR, USAF
APPELLATE DEFENSE COUNSEL
AIRFORCE APPELLATE DEFENSIVE DIVISION
1500 W. PERIMETER ROAD, SUITE 1100
JOINT BASE ANDREWS, MD 20762
240-612-4470
MARK.J. SCHWARTZ7.MIL@MAIL.MIL
DAVID P. SHELDON
LAW OFFICES OF DAVID P. SHELDON, PLLC
100 M STREET, SE
SUITE 600
WASHINGTON, DC 20003
202-546-9575
DAVIDSHELDON@MILITARYDEFENSE.COM
STEPHEN I. VLADECK
727 EAST DEAN KEETON ST.
AUSTIN, TX 78705
512-475-9198
SVLADECK@LAW.UTEXAS.EDU

